<html>
<title> - H.R. 1598 and H.R. 1732</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                        H.R. 1598 and H.R. 1732

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              May 22, 2003

                               __________

                           Serial No. 108-23

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

87-233              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
VACANCY

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                   KEN CALVERT, California, Chairman
        GRACE F. NAPOLITANO, California, Ranking Democrat Member

George Radanovich, California        Calvin M. Dooley, California
Greg Walden, Oregon                  Jay Inslee, Washington
Thomas G. Tancredo, Colorado         Raul M. Grijalva, Arizona
J.D. Hayworth, Arizona               Dennis A. Cardoza, California
Tom Osborne, Nebraska                George Miller, California
Rick Renzi, Arizona                  Ciro D. Rodriguez, Texas
Stevan Pearce, New Mexico            Joe Baca, California
Devin Nunes, California              Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 22, 2003.....................................     1

Statement of Members:
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................     2
        Prepared statement of....................................     2
    Carter, Hon. John, a Representative in Congress from the 
      State of Texas.............................................     3
    Cox, Hon. Christopher, a Representative in Congress from the 
      State of California, Statement and letters submitted for 
      the record.................................................     6
    Edwards, Hon. Chet, a Representative in Congress from the 
      State of Texas.............................................     4
    Napolitano, Hon. Grace, a Representative in Congress from the 
      State of California........................................     3

Statement of Witnesses:
    Beal, Joseph J., General Manager, Lower Colorado River 
      Authority, Texas...........................................    24
        Prepared statement on H.R. 1732..........................    26
    Brady, Brian, President, Board of Directors, Irvine Ranch 
      Water District, California.................................    16
        Prepared statement on H.R. 1598..........................    18
    Heiligenstein, Hon. Mike, County Commissioner, Williamson 
      County, Texas..............................................    21
        Prepared statement on H.R. 1732..........................    23
    Limbaugh, Mark A., Director, External and Intergovernmental 
      Affairs, Bureau of Reclamation, U.S. Department of the 
      Interior...................................................    10
        Prepared statement on H.R. 1598..........................    10
        Prepared statement on H.R. 1732..........................    11
        Response to questions submitted for the record...........    35
    McKenney, Larry, Manager, Watershed and Coastal Resources, 
      County of Orange, California...............................    12
        Prepared statement on H.R. 1598..........................    14


 LEGISLATIVE HEARING ON H.R. 1598, TO AMEND THE RECLAMATION WASTEWATER 
AND GROUNDWATER STUDY AND FACILITIES ACT TO AUTHORIZE THE SECRETARY OF 
  THE INTERIOR TO PARTICIPATE IN PROJECTS WITHIN THE SAN DIEGO CREEK 
WATERSHED, CALIFORNIA, AND FOR OTHER PURPOSES; AND H.R. 1732, TO AMEND 
THE RECLAMATION WASTEWATER AND GROUNDWATER STUDY AND FACILITIES ACT TO 
     AUTHORIZE THE SECRETARY OF THE INTERIOR TO PARTICIPATE IN THE 
 WILLIAMSON COUNTY, TEXAS, WATER RECYCLING AND REUSE PROJECT, AND FOR 
                            OTHER PURPOSES.

                              ----------                              


                         Thursday, May 22, 2003

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 1324, Longworth House Office Building, Hon. Ken Calvert 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Calvert, Osborne, Pearce, Nunes, 
Napolitano, Inslee, Grijalva and Cardoza.
    Mr. Calvert. The oversight hearing by the Subcommittee on 
Water and Power will come to order.
    The Subcommittee is meeting today to hear testimony on H.R. 
1598, a bill to amend the Reclamation Wastewater and 
Groundwater Study and Facilities Act to authorize the Secretary 
of the Interior to participate in projects within the San Diego 
Creek Watershed, California, and other purposes, and H.R. 1732, 
a bill to amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act to authorize the Secretary of Interior 
to participate in the Williamson County, Texas, Water 
Reclamation and Reuse Project, and for other purposes.
    Under Rule 4[g], the Chairman and the Ranking Minority 
Member may have an opening statement. I will start with mine.

STATEMENT OF THE HON. KEN CALVERT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Calvert. Recent drought conditions, critical water 
shortages, and increasing water competition are requiring 
communities to look beyond the traditional ways of developing 
and maintaining dependable and safe water supplies. The 
Subcommittee heard in previous testimony and hearings that 
water recycling is one option that communities have 
successfully utilized to become more ``drought resistant'' and 
less dependent on imported and traditional water sources.
    This is certainly the case in Southern California which is 
faced with substantial Colorado River reductions and 
inefficient conveyance from Northern California. Even while 
some affected parties constantly try to move the goal post back 
in attempting to find a solution on Colorado River reductions, 
one thing remains clear: California communities will continue 
to examine ways to develop water from their own backyards.
    Although water recycling has played a major role in 
developing and providing water security to California, 
communities throughout the West have enjoyed the benefits of 
water recycling. Today, we will focus on how two communities 
plan to meet their water needs through water recycling in 
water-deficient regions, such as South-Central Texas and 
Southern California. Recycled water technologies are being 
considered to a greater extent than ever before in response to 
increasing demands on limited, high-quality water supplies.
    H.R. 1598 and H.R. 1732 would allow the Secretary of 
Interior to provide technical and Federal financial resources 
through the use of the Title XVI Program. Today, we have the 
privilege of hearing from several leaders who are very aware of 
how water supplies are being stressed and how important it is 
to look for innovative and nontraditional ways to meet our 
future water demands.
    I thank the panel for being here today and certainly look 
forward to your testimony.
    [The prepared statement of Mr. Calvert follows:]

           Statement of The Honorable Ken Calvert, Chairman, 
                    Subcommittee on Water and Power

    Recent drought conditions, critical water shortages, and increasing 
water competition are requiring communities to look beyond the 
traditional ways of developing and maintaining dependable and safe 
water supplies. The Subcommittee heard in previous hearings that water 
recycling is one option that communities have successfully utilized to 
become more ``drought resistant'' and less dependent on imported and 
traditional water sources.
    This is certainly the case in Southern California, which is faced 
with substantial Colorado River reductions and inefficient conveyance 
from northern California. Even while some affected parties constantly 
try to move the goal post back in attempting to find a solution on 
Colorado River reductions, one thing remains clear: California 
communities will continue to examine ways to develop water from their 
own backyards.
    Although water recycling has played a major role in providing water 
security to California, communities throughout the west have also 
enjoyed the benefits of water recycling. Today, we will focus on how 
two communities plan to meet their water needs through water recycling. 
In water-deficient regions such as south-central Texas and southern 
California, recycled water technologies are being considered to a 
greater extent than ever before in response to increasing demands on 
limited high quality water supplies.
    H.R. 1598 and H.R. 1732 would allow the Secretary of the Interior 
to provide technical and Federal financial resources through the use of 
the Title 16 Program. Today, we have the privilege of hearing from 
several leaders who are very aware of how water supplies are being 
stressed and how important it is to look for innovative and non-
traditional ways to meet future water demands. I thank the panel for 
being here today and look forward to your testimony.
                                 ______
                                 
    Mr. Calvert. I am happy now to recognize Ms. Napolitano, 
the Ranking Member, for any statements she may have.

STATEMENT OF THE HON. GRACE F. NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you, Mr. Chairman.
    I join you this morning in welcoming the witnesses from 
Southern California, and from the great State of Texas, and 
also the Bureau of Reclamation, and our colleagues who are here 
in support of our projects.
    Mr. Chairman, you and I very strongly support our 
communities in the West as they apply innovative technologies 
to their water supply problems, and it is very unfortunate that 
this administration finds it so difficult to support these 
projects. So I look forward to discussing these bills with our 
witnesses this morning, and I am particularly interested to 
learn more about how the Irvine Ranch projects are related to 
other recycling projects and groundwater projects that are 
planned to run the construction in the Santa Ana Watershed.
    And we trust that our witnesses from Williamson County, 
Texas, and the Lower Colorado River Authority can provide 
details on how they can better use water through water 
recycling to help drought proof their service areas. Knowing 
that a lot of the border area is facing critical drought, we 
hope that we will continue to have those communities come to 
this Committee and request assistance in making sure that they 
become more drought proof in the future.
    Mr. Chairman, I am grateful for your continued support in 
these critical issues and look forward to the testimony.
    Thank you.
    Mr. Calvert. I thank the gentlelady.
    I would like to recognize our first panel of witnesses, 
which includes our distinguished colleagues from Texas and our 
good friends: Representative John Carter, Texas, 31st District, 
and Representative Chet Edwards, Texas, 11th District, my old 
neighbor here in Washington, D.C. Glad you are both here, and 
we would like to recognize Mr. Carter first.

STATEMENT OF THE HON. JOHN CARTER, A REPRESENTATIVE IN CONGRESS 
             FROM THE 31ST DISTRICT, STATE OF TEXAS

    Mr. Carter. Thank you, Mr. Chairman and Ranking Member. I 
wish good morning to you and all the members of the Committee. 
Unfortunately, this morning, time is a precious commodity in 
Congress, and I have got great things I have got to look after 
this morning, but I want to stop and personally thank this 
Committee for holding this hearing on H.R. 1732, the Williamson 
County Water Recycling Act of 2003. It is important. I am proud 
to represent Williamson County, one of the fastest-growing 
counties in America, and I can assure you that we have two very 
fine gentlemen and good friends of mine who are appearing 
before you today to offer testimony about this gentleman.
    Joe Beal, the general manager and chief executive officer 
of the Lower Colorado River Authority, has the responsibility 
of running an organization that provides electricity for over 
one million people and also provides water resources, resource 
management, flood protection, drought management, agricultural 
irrigation and water and wastewater utility services throughout 
58 county service territories in Texas. Joe is an outstanding 
leader, and the great reputation of the LCRA that it enjoys 
throughout the State of Texas is, in no small part, part of his 
efforts.
    I am also pleased to introduce to you a long-time friend of 
mine, Mike Heiligenstein. Mike has been active in Williamson 
County for over 20 years; first, as a Round Rock City Council 
member, as a member of numerous task forces and steering 
committees, and now as a Williamson County Commissioner. Mike 
has truly made a positive difference in the Williamson County 
community. He has been especially active in the areas of water 
resources and has been instrumental in regional water planning 
efforts.
    Again, I want to apologize for not being able to stay for 
the remainder of this hearing, but I am in full support of this 
legislation and look forward to working with the members of 
this Committee to ensure this bill's success.
    I thank you for your time and yield back my time.
    Mr. Calvert. I thank the gentleman.
    Mr. Edwards?

    STATEMENT OF THE HON. CHET EDWARDS, A REPRESENTATIVE IN 
        CONGRESS FROM THE 11TH DISTRICT, STATE OF TEXAS

    Mr. Edwards. Mr. Chairman, what oil and gas were to Texas 
in the 20th century, water will be to our State in the 21st 
century, and that is specifically why I want to thank you 
specifically for your leadership, in terms of water recycling, 
water conservation in this Congress. You have been a tremendous 
leader in that area, and that is going to have long-term 
positive impact on families all across our country, both in 
California, and Texas, and elsewhere.
    Mrs. Napolitano, thank you for your leadership as Ranking 
Member of this Committee on these important issues of water 
conservation and water use.
    I am primarily here to salute my colleague, Congressman 
John Carter, for his vision and leadership in putting together 
this legislation. He has been a distinguished selected official 
from Williamson County, which I now share with my 
representation of the county seat, but Mr. Carter is known as 
``Mr. Williamson County.'' He has lived in and represented that 
county ably for well over two decades.
    As he said, this is one of the fastest-increasing 
population counties in the country, and we have not been 
sitting back idly waiting for Federal resources to come in. We 
have worked at the local, State, Federal level together in 
partnership building pipelines to Stillhouse Hollow Lake in my 
congressional district, working on a study right now, through 
my Appropriations Subcommittee on Energy and Water in the House 
to figure out if at Lake Georgetown in Williamson County we can 
find a better way to conserve water and use water there.
    This bill is simply asking for a Federal partnership in 
helping the local communities and Mr. Carter's leadership to 
provide water for Williamson County for many, many years to 
come.
    I salute him, I salute Mr. Joe Beal, with the Lower 
Colorado River Authority, and Commissioner Mike Heiligenstein, 
who has been a leader on this issue for many, many years.
    I understand that some of the folks from the Bureau of 
Reclamation take a standard policy of opposing these bills, 
saying we have got a lot of them backed up. Well, perhaps we 
need to work more closely with our Appropriations Committee. If 
we haven't done our job in funding these projects, Mr. 
Chairman, like you have done your job in authorizing them, then 
maybe we need to get to work.
    I don't find in our Committee the Bureau of Reclamation 
suggesting a lot of new dams being built across the country, 
and it seems to me that recycling of water, so you are not 
pumping drinking water on the golf courses and parks for grass, 
would be a lot cheaper way to go than building dozens of new 
major lakes and dams across the country.
    So I salute Congressman Carter for his leadership and 
vision on this bill, and I am just honored to be here to 
support him in that effort.
    Thank you.
    Mr. Calvert. I thank you for your testimony, and I agree 
with both of you. We need to concentrate with our colleagues on 
making sure that we fund these reclamation projects throughout 
the United States, and especially the arid parts of the United 
States, such as Texas, California, New Mexico, and Nebraska, 
wherever we may have these problems because you are right, we 
are not going to be building a lot of dams in the country, and 
we need to look at new and innovative ways to meet our 
problems.
    I don't have any questions for you because I know you have 
to run off, but I would be happy to recognize Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    Gentlemen, it is great that you are here on behalf of your 
constituency, and I look forward to working with both of you 
because these issues affect California and affect every other 
State in the Nation. And if we don't work together, if we don't 
shed some light and--how would I say it gently--get the 
Administration off their ``duff'' to fund it so we can have 
those projects moving forward, it is that important, and 
hopefully you will be able to get the message that they need to 
increase the budgeting in those areas that are critical to be 
able to fight the drought, to be able to have liberal 
communities again.
    Thank you, sir.
    Mr. Calvert. Thank you.
    The only thing I would add to that, that is not just the 
Administration, but the Appropriations Committees.
    Mr. Edwards. Absolutely.
    Mr. Calvert. So we have a responsibility in the governance 
process, too.
    So thank you gentlemen for coming out today. You are 
excused.
    Mr. Calvert. We will now hear testimony from our second 
panel, which includes testimony on H.R. 1598 and H.R. 1732. 
While the gentlemen are coming up, the author of 1598, Chris 
Cox, is unable to be with us today because there is a hearing 
on homeland security, which he chairs, and obviously he could 
not forfeit that responsibility, but we will submit his written 
testimony for the record, if there is no objection.
    [No response.]
    Mr. Calvert. Hearing none, his testimony is submitted.
    [The prepared statement of Mr. Cox follows:]

    Statement of The Honorable Christopher Cox, a Representative in 
                 Congress from the State of California

    Mr. Chairman, thank you for the opportunity to speak today on H.R. 
1598, the Irvine Basin Surface and Groundwater Improvement Act. I am 
proud to have sponsored this legislation as it will be tremendously 
beneficial for both water quality and water availability in Southern 
California, particularly in Orange County. I'd also like to thank Mr. 
Brian Brady, President of the Board of Directors for the Irvine Ranch 
Water District and Mr. Larry McKenney, Manager of Watershed and Coastal 
Resources for the County of Orange, for agreeing to testify today.
    The U.S. Environmental Protection Agency has declared the San Diego 
Creek and the Upper Newport Bay to be ``limited'' in water quality, 
meaning that drinking or swimming in the water is hazardous. This 
designation is due to drainage from urban surfaces that flows 
unfiltered into the watershed.
    Thankfully, Orange County is working successfully to combine the 
treatment of drinking water with the important goal of protecting the 
environment. The Natural Treatment System currently being developed by 
the County of Orange, City of Newport Beach, and the Irvine Ranch Water 
District will have a tremendous impact on the water quality of the Bay. 
The process will remove unwanted sediment, nutrients, and other 
contaminants which, if left untreated, will pollute and clog up the 
Upper Newport Bay. That is why this legislation is endorsed by local 
environmental groups like the Orange County Coastkeepers and the 
Newport Bay Naturalists and Friends.
    As you are well aware, with the growing demands for water in 
Southern California, it is important that communities take steps to 
treat and conserve existing water resources. H.R. 1598 will authorize 
the Bureau of Reclamation to assist in the planning, development and 
design of a series of man-made wetlands that will help clean up 
polluted surface runoff within the San Diego Creek Watershed. Because 
the Bureau of Reclamation has extensive experience with such projects, 
its participation will be important in ensuring that the project moves 
forward as quickly and cost-effectively as possible.
    The total cost of designing and constructing the Natural Treatment 
System will be $41 million. A majority of these funds will come from 
the private sector, and the Irvine Ranch Water District, state, and 
local governments will contribute significant additional resources as 
well. To ensure strong local support for the project, I included 
language in H.R. 1598 limiting the Federal Government's involvement to 
no more than 25% of the project's total costs. Once construction is 
completed, annual operating funding will be provided entirely by local 
agencies.
    Finally, there is the potential for significant cost savings for 
the Federal Government: by reducing silt runoff into Upper Newport Bay, 
the Natural Treatment System will reduce the need for the Corps of 
Engineers to regularly dredge the bay to remove the accumulation of 
silt and pollutants.
    Mr. Chairman, thank you again for your support for this important 
legislation and for the opportunity to speak about it today.
                                ______
                               
[GRAPHIC] [TIFF OMITTED] T7233.001
                                
[GRAPHIC] [TIFF OMITTED] T7233.002
                                 
[GRAPHIC] [TIFF OMITTED] T7233.003

    Mr. Calvert. And we are going to be receiving testimony 
from Mr. Mark Limbaugh, Director of External and 
Intergovernmental Affairs, U.S. Bureau of Reclamation.
    I think we are first going to be hearing from Mr. Limbaugh 
who will testify on both bills. Be gentle, Mr. Limbaugh, and 
you are recognized.

     STATEMENT OF MARK LIMBAUGH, DIRECTOR OF EXTERNAL AND 
     INTERGOVERNMENTAL AFFAIRS, U.S. BUREAU OF RECLAMATION

    Mr. Limbaugh. Thank you, Mr. Chairman, Mrs. Napolitano, 
members of the Committee. I would like to make some oral 
comments and submit my written statement, if you so desire.
    Mr. Calvert. Without objection.
    Mr. Limbaugh. Thank you.
    Again, my name is Mark Limbaugh. I am the Director of 
External and Intergovernmental Affairs for the Bureau of 
Reclamation here in Washington. I am pleased to be here to talk 
to you about the Department's views on H.R. 1598.
    This Act would obviously amend the Reclamation Wastewater 
and Groundwater Study and Facilities Act, commonly known as 
Title XVI, to authorize the Secretary to participate in 
projects in the San Diego Creek Watershed in California and for 
other purposes.
    Reclamation has had preliminary discussions with Irvine 
Ranch Water District on the proposed surface water treatment, 
groundwater treatment and brine disposal components of their 
project. However, we believe that because there is a lack of a 
feasibility study at this time, that this legislation is 
premature in authorizing the design and construction of a 
project.
    Also, we have concerns about the burdens on our budget from 
additions to Title XVI projects, which already there is a large 
backlog of unconstructed and authorized projects, but we will 
continue to work with the district in California on this 
project to help get to the point of at least the feasibility 
level study. However, we cannot support this bill at this time, 
Mr. Chairman.
    I am also pleased to be here to present the views of the 
Department on H.R. 1732, concerning the Williamson County 
Reclamation Project in the State of Texas. Again, this bill 
would amend the Reclamation Wastewater and Groundwater Study 
and Facilities Act, authorizing the Secretary to participate in 
the design, planning and construction of a reclamation project 
in Williamson County, Texas.
    We have only recently met with local representatives of the 
Lower Colorado River Authority and have not had sufficient time 
to really discuss and review the merits of this project. So at 
this time we cannot support H.R. 1732, but we will continue to 
work with the Lower Colorado River Authority to investigate the 
merits of this project at this time.
    Mr. Chairman, that concludes my comments on the two bills.
    [The prepared statements of Mr. Limbaugh follow:]

Statement of Mark A. Limbaugh, Director, External and Intergovernmental 
  Affairs, Bureau of Reclamation, U.S. Department of the Interior, on 
                               H.R. 1598

    My name is Mark Limbaugh and I am the Director of External and 
Intergovernmental Affairs for the Bureau of Reclamation. I am pleased 
to appear before this Subcommittee to provide the Department's views on 
H.R. 1598.
    H.R. 1598 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (Public Law 102-575), commonly called Title 
XVI, to authorize the Secretary of Interior to participate in projects 
within the San Diego Creek Watershed in California and for other 
purposes.
    Reclamation has had some preliminary discussions with the Irvine 
Ranch Water District about proposed surface water treatment, 
groundwater treatment, and brine disposal components of their project. 
However, H.R. 1598 authorizes the design and construction of the 
project before Reclamation or the project sponsors have completed a 
feasibility study that meets the legal requirements of Title XVI. 
Reclamation requires that feasibility studies be completed first to 
determine whether these particular projects warrant Federal 
construction authorization. Therefore, the Department believes the 
legislation to be premature and cannot support H.R. 1598 at this time.
    The Department also believes that this legislation would likely 
place an additional burden on Reclamation's already tight budget. With 
the tremendous backlog of existing Title XVI projects, we do not 
support the addition of new projects at this time.
    Thank you for the opportunity to comment on H.R. 1598. That 
concludes my statement and I would be happy to answer any questions.
                                 ______
                                 

Statement of Mark A. Limbaugh, Director, External and Intergovernmental 
  Affairs, Bureau of Reclamation, U.S. Department of the Interior, on 
                               H.R. 1732

    My name is Mark Limbaugh and I am Director of External and 
Intergovernmental Affairs for the Bureau of Reclamation. I am pleased 
to present the views of the Department of the Interior on H.R. 1732, 
concerning the Williamson County water reclamation project in the State 
of Texas.
    H.R. 1732 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (Public Law 102-575), authorizing the 
Secretary of the Interior to participate in the design, planning, and 
construction of a water reclamation project in Williamson County, 
Texas. The authority provided in H.R. 1732 is an amendment to limit the 
Federal share of project costs to 25 percent of the total project 
costs, caps the maximum Federal share of each project at $20 million 
and restricts the Secretary from providing funding for the operation 
and maintenance.
    Reclamation only recently met with representatives of the Lower 
Colorado River Authority and thus we have not had sufficient time to 
review the merits of the project. In that respect, until we have more 
information, we cannot comment on the merits of the project itself and 
therefore cannot support H.R. 1732.
    The Department also believes enactment of this legislation 
authorizing new construction projects is likely to place an additional 
burden on Reclamation's already tight budget. With the tremendous 
backlog of Title XVI projects that already exist, we do not support the 
addition of new wastewater projects at this time.
    For the record, Mr. Chairman, in 1992, the Reclamation Projects 
Authorization and Adjustment Act (Public Law 102-575) was enacted. 
Title XVI of this Act, the Reclamation Wastewater and Groundwater Study 
and Facilities Act, authorized construction of five water reclamation 
and reuse projects. The Secretary also was authorized to undertake a 
program to identify other water recycling opportunities throughout the 
17 western United States and to conduct appraisal level and feasibility 
level studies to determine if those opportunities are worthy of 
implementation. In addition, the Secretary was authorized to conduct 
research and to construct, operate, and maintain demonstration 
projects. Reclamation has been administering a grant program to fund 
these Title XVI activities since fiscal year 1994.
    In 1996, Public Law 104-266, the Reclamation Recycling and Water 
Conservation Act, was enacted. This Act amended Title XVI and 
authorized the Secretary to participate in the planning, design, and 
construction of 18 additional projects, including two desalination 
research and development projects. To date, Congress has provided 
funding to plan or construct 19 of 25 specifically authorized projects. 
Under the general authority of Title XVI, funding has been provided to 
identify and investigate, at the appraisal or feasibility level, eight 
potential water recycling projects, and to conduct three research and 
demonstration projects.
    In summary, the Department strongly encourages local water 
recycling efforts and is engaged in numerous water reuse and recycling 
projects around the West. However, for the reasons provided above, the 
Department cannot, at this time, support authorizing this new 
construction request.
    Thank you for the opportunity to comment on H.R. 1732. This 
concludes my statement and I would be happy to answer any questions.
                                 ______
                                 
    Mr. Calvert. Thank you, Mr. Limbaugh. I would only add, 
before we get to the testimony of the other gentlemen that are 
here to testify on behalf of H.R. 1598 to 1732, that I believe 
that you are going to be, and I am going to be talking to 
others in the Administration, a considerable amount of support 
on both sides of the aisle, for reclamation projects, because 
if we don't start developing additional resources by reusing an 
existing resource, then I don't see how we can meet our water 
demands in the future. I understand the budget constraints that 
we are operating under, but we will need to deal with that.
    With us today testifying on H.R. 1598 is Mr. Larry 
McKenney, the manager of the Watershed and Coastal Resources 
for Orange County, California, and Mr. Brian Brady, President 
of the Board of Directors, the Irvine Ranch Water District of 
California.
    Testifying on H.R. 1732 is the Honorable Mr. Mike 
Heiligenstein, Commissioner, Williamson County, Texas, and Mr. 
Joe Beal, general manager of the Lower Colorado River Authority 
in Texas.
    So, with that, we will start off with Mr. Larry McKenney. 
We are on a 5-minute rule, Mr. McKenney. As a matter of fact, 
there is a town of McKenney, right there in Denton County, 
Texas, where my dad was born, so it must be nearby.
    So, with that, Mr. McKenney, you are recognized.

  STATEMENT OF LARRY McKENNEY, MANAGER, WATERSHED AND COASTAL 
            RESOURCES FOR ORANGE COUNTY, CALIFORNIA

    Mr. McKenney. Good morning, Mr. Chairman, and other 
distinguished members of the Committee. I am Larry McKenney. I 
do manage the Watershed and Coastal Resources Division, which 
is part of the Public Facilities and Resources Department of 
the County of Orange. My task in that position includes the 
watershed management efforts for the 13 watersheds that 
comprise Orange County and also our Stormwater Compliance 
Program.
    I appreciate the opportunity to testify before you today 
about the Irvine Ranch Water District Natural Treatment Systems 
Project and the water resources that that project would help to 
steward and protect.
    My comments today can be epitomized by the idea that we 
should be using public funds as much as possible for multiple 
purposes and that that is really the essence of the watershed 
approach, an effort to manage water resources on the scale of 
the watershed as a physical system, where there are many 
competing and conflicting interests that can be resolved in 
efficient ways if we look at it on a systems basis.
    The County of Orange obviously exists to provide for and 
protect the public health of its residents, and that includes 
protecting its water resources, including both the adequacy of 
the quantity of our drinking water and also the health of our 
ecosystems, and the water quality of our streams and beaches.
    We are very fortunate in Orange County to have a number of 
special districts, like Irvine Ranch Water District, who bring 
great expertise to the water business and help us to protect 
these valuable resources. So even though the county itself is 
not a water supplier, we work very closely with special 
districts like RWD to manage our water supply and our other 
water resources.
    Orange County has taken a particular interest in Upper 
Newport Bay, which is at the bottom end of the San Diego Creek 
Watershed, where the natural treatment systems project is 
proposed. Upper Newport Bay is an ecological jewel. It is a 
recreational and aesthetic amenity as well, and it has been 
severely threatened by development in the urbanized San Diego 
Creek Watershed from pollutants like sediment, nutrients, 
pathogens, and toxic metals.
    The most efficient solutions to these problems are not to 
treat the water near the bottom of the watershed, but to try to 
address the pollution up in the watershed where the sources are 
and to use the territory that we have as effectively as we can.
    By improving water quality further up in the watershed, the 
health of the stream channels all the way to the ocean will 
benefit. One interest that the county has is that we are the 
lead permittee under two separate stormwater permits. Under 
these permits, the county, all 34 cities, and the Orange County 
Flood Control District are co-permittees, and so we have the 
legal responsibility to reduce pollution in the streams and 
bays to the maximum extent practicable.
    Our permits include provisions that strongly support our 
own impetus toward a watershed approach. And in implementing 
our stormwater program, we have created watershed groups that 
include all of our co-permittees that have territory within 
each watershed, and also special districts, property owners, 
business interests, environmental and recreational interest 
groups who are active in the watershed, and these groups help 
us to balance the often competing environmental concerns and to 
agree on priorities within that watershed.
    One example of the conflicting interests that are typically 
found in an urban watershed is the need for flood protection, 
which then conflicts with the need to conserve rainfall for 
water supply and the need to maintain the health of ecosystems 
and rivers and streams.
    In the San Diego Creek Watershed, the Orange County Flood 
Control District has been doing an admirable job of protecting 
the developed property in the watershed from damage from 
devastating floods. And to achieve this, the flood control 
district has improved miles of channel to carry peak flows 
reliably and quickly downstream and has constructed detention 
basins to hold water and dampen the peaks of flood flows 
downstream.
    One view of the world is that this flood control 
infrastructure has been a tradeoff, a major public investment 
in flood protection necessarily at the expense of other natural 
features in the watershed. But the IRWD approach challenges 
that paradigm and sees these flood control facilities as an 
opportunity, where we can retrofit into that physical system 
water quality features.
    Their proposal includes numerous sites throughout the San 
Diego Creek Watershed where wetlands could be constructed, 
often within flood control facilities, and then these wetlands 
will restore some of the lost functioning of the natural 
system, including filtering out water impurities, encouraging 
recharge of groundwater to improve water supply, and enhancing 
the habitat values of the region.
    This approach capitalizes on the fact that the full flood-
carrying capacity of the system is not necessary the vast 
majority of the time and that we can build a water quality 
improvement feature in the system and still have the flood-
carrying capacity available when it is needed.
    The project is important to the region's overall management 
of water supply as well. Orange County can't survive on the 
local natural supply that is available to it, and we have to 
use every other resource to ensure a reliable supply, including 
importation, of course, as well as conservation and recycling. 
It means also the use of groundwater and surface water 
conjunctively in a coordinated way to optimize supply.
    Maximizing the use of recycled water will allow us to use 
every drop of water several times before it reaches the ocean. 
All of these techniques are being used in Orange County, and 
you can see that, like our emphasis on watersheds as the 
appropriate physical frame of reference, this is a systems 
approach, and it provides the most benefit when we are able to 
use water from various sources with as much flexibility as 
possible.
    To be able to maximize recycled water use, to use imported 
water from different sources at will, to manipulate groundwater 
levels to optimize supply and at the same time maintain flood-
carrying capacity in our improved channels and not endanger 
habitat values and overall water quality, to achieve all of 
those goals, natural systems within the channels need to be 
strong and healthy, robust enough to withstand the stresses of 
that kind of system management.
    IRWD's projects are great examples of innovation and 
technical excellence. The Natural Treatment Systems Project is 
an innovative concept. It is one of those concepts that, once 
somebody has described it to you, it seems perfectly obvious, 
and yet it is innovative.
    My division was created within the county to encourage 
collaboration between Government agencies that have activities 
that affect water, and I am very happy to be able now to move 
outside of the county and collaborate with special districts 
like IRWD. We are very hopeful that the Bureau of Reclamation 
will be authorized to collaborate with us as a partner as well 
and bring their expertise to bear in helping us solve our 
problems.
    Thank you.
    [The prepared statement of Mr. McKenney follows:]

Statement of Larry McKenney, Manager, Watershed and Coastal Resources, 
                      County of Orange, California

    Good morning, Mr. Chairman, Congressman Cox, and other 
distinguished Members of this Committee. My name is Larry McKenney, and 
I manage the Watershed and Coastal Resources Division of the Public 
Facilities and Resources Department in the County of Orange. I 
appreciate the opportunity to testify before you today on H.R. 1598 and 
to discuss the water resources that it would help to protect. I am 
grateful to Congressman Cox for introducing this bill, and also to 
Senator Feinstein for the related bill in the Senate.
    The County of Orange exists to provide for and protect the health 
and welfare of its citizens. That includes water resources, both the 
adequacy of the supply of potable water, and the quality of water in 
our streams and on our beaches. In particular, our bays and beaches are 
very important because of their national ecological significance and 
because they are the beating heart of the Orange County economy.
    We are fortunate in Orange County to have a number of special 
districts, like the Irvine Ranch Water District, that bring to bear 
great expertise in addressing the water and wastewater service needs in 
the County. These water resources issues are critically important in a 
densely urbanized region that cannot survive on the amount of local 
water that is naturally available. Several of our cities also have 
water and sewer departments. The County itself is not a water supplier, 
but has other water resources interests and has been a leader in the 
watershed approach that Mr. Brady mentioned. Our approach is to look at 
water resources holistically within the physical system of a watershed, 
or single drainage area.
    Water resources issues have a very high profile in Southern 
California. If the adequacy of our water supplies comes into question, 
even if the question is not justified, the public perception of a 
problem is acute. Similarly, any threat, even a merely perceived 
threat, to the quality of our recreational waters has a negative effect 
on tourism, the economy, and the quality of life of the residents and 
visitors in Orange County.
    Starting more than ten years ago, Orange County began to look at 
watersheds as the proper scale for the management of our water 
resources. The County has led this effort, serving in different roles--
as committee chair, as facilitator, as technical expert--in the 
thirteen different watersheds the comprise the County. The earliest 
example was in the San Diego Creek and Newport Bay watershed. As that 
watershed developed and an urban infrastructure was constructed, the 
County and its municipal partners and other stakeholders have kept a 
close watch on sediment, nutrients, and other water quality problems.
    Orange County has taken a special interest in Upper Newport Bay. It 
is an ecological jewel, and is also a valuable recreational and 
aesthetic amenity. It has also been severely threatened by the effects 
of development in the San Diego Creek watershed, particularly from 
sediment, nutrients, and toxic metals. The County and other local 
stakeholders have partnered with the Army Corps of Engineers to address 
sediment issues, which affect not only habitat, but also navigability 
in the upper and lower bays. Notably, the Army is starting an ecosystem 
restoration project that will restore and improve significant habitat 
areas in the Bay. The most efficient solutions to some of the other 
problems facing the Bay must be implemented throughout the watershed, 
and not just at the bottom of the system. Not only is this approach 
more efficient, but it is substantially more effective in achieving 
multiple goals. By improving water quality further up in the watershed, 
the health of the stream channels all the way to ocean will benefit, 
rather than simply cleaning the water near the end of the system. More 
subtle, but more important, is the effect this approach has on our 
overall ability to manage water resources.
    One interest the County has is that we are the lead permittee under 
two areawide municipal stormwater permits. All 34 cities in the County, 
and the Orange County Flood Control District, are co-permittees. 
Special districts, like Irvine Ranch Water District, are not covered by 
those municipal permits. Our permits include provisions strongly 
supporting our own focus on the watershed approach. In implementing our 
stormwater program, we have created watershed groups that include the 
co-permittees with territory within the watershed, and also the special 
districts and property owners, business interests, and environmental 
and recreational interest groups who are active in the watershed. These 
groups do real work in helping the government agencies with 
responsibilities for resources to see their needs and interests in the 
context of the entire watershed, to balance often competing 
environmental concerns, and to agree on priorities.
    An example of the conflicting interests typically found in an urban 
watershed is the need for flood protection, which conflicts with the 
need to conserve rainfall for water supply, and the need to maintain 
the health of ecosystems in rivers and streams. In the San Diego Creek 
watershed the Orange County Flood Control District is doing an 
excellent job of protecting developed property from damage from 
devastating floods. To achieve this, the Flood Control District has 
improved miles of channel to carry peak flows reliably and quickly, and 
has constructed detention basins to hold water and dampen the peaks of 
flood flows downstream.
    One view of the world is that this flood control infrastructure has 
been a trade off, a major public investment in flood protection at the 
expense of the natural features and functions of our streams and 
waterways. The IRWD Natural Treatment Systems project changes the 
paradigm and sees these flood control facilities as an opportunity to 
retrofit water quality features into the flood control system. The 
proposal includes numerous sites throughout the area of the San Diego 
Creek watershed where wetlands would be created, often within flood 
control facilities. These wetlands will restore some of the lost 
functioning of the natural system, including filtering out water 
impurities, encouraging the recharge of groundwater, and enhancing the 
habitat values of the region. The approach capitalizes on the fact that 
the full capacity of the flood control facilities is not needed the 
vast majority of the time, and it can be available to carry flood flows 
when major rains do come.
    Since Orange County cannot survive on its own local, natural water 
supply, we have use every other source to ensure a reliable supply. 
This includes importation, of course, as well as water conservation. It 
also means use of groundwater and surface water in a coordinated way to 
optimize supply--an approach called conjunctive use. And it also 
includes maximizing the recycling of water so that it gets used several 
times before being discharged to the ocean. All of these techniques are 
being used in Orange County, and you can see that this is, like our 
emphasis on watersheds, a systems approach. It provides the most 
benefit when we are able to use water from various sources with as much 
flexibility as possible. To be able to maximize recycled water use, use 
imported water from different sources at will, and manipulate 
groundwater levels, all in order to optimize water supply, and maintain 
flood carrying capacity in our streams, but without endangering the 
habitat values and overall water quality in our streams and channels, 
the natural systems within the channels need to be strong and healthy, 
robust enough to withstand foreseeable stresses.
    IRWD's projects are great examples of innovation and technical 
excellence. The Natural Treatment Systems Project is one of those 
innovative concepts that seem entirely obvious once someone has 
described it. It truly illustrates the watershed approach in an 
urbanized watershed. Each of Orange County's thirteen watersheds is a 
unique situation in terms of problems, opportunities, partners, and 
priorities. In the San Diego Creek watershed, the Natural Treatment 
Systems project is the right approach, and we have stakeholders who are 
willing to work on it. My division, the Watershed and Coastal Resources 
Division, was created within the County to encourage collaboration and 
innovation between other County programs that touch water quality, 
including the flood control, transportation infrastructure, parks, and 
development planning. It is especially exciting to be able to work in 
the same way with other stakeholders within the County like IRWD who 
share that vision. The County and the Flood Control District are proud 
to be partners with IRWD. We are hopeful that the Bureau of Reclamation 
will be authorized to participate with us as well so that we can 
benefit from their knowledge and expertise with regard to constructed 
wetlands, water quality, and the systems approach to water supply 
management. Mr. Chairman, thank you for the opportunity to testify 
before you today. I am very excited about the great work that the 
Irvine Ranch Water District has done in my community and we look 
forward to partnering with the Bureau of Reclamation to ensure the 
project's success.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman.
    Next, Mr. Brady, Brian Brady, the President of the Board of 
Directors, Irvine Ranch Water District. You are recognized.

STATEMENT OF BRIAN BRADY, PRESIDENT, BOARD OF DIRECTORS, IRVINE 
 RANCH WATER DISTRICT, CALIFORNIA, ACCOMPANIED BY PAUL JONES, 
          GENERAL MANAGER, IRVINE RANCH WATER DISTRICT

    Mr. Brady. Thank you, Mr. Chairman and members of the 
Committee. I am Brian Brady, the president of the board of 
Irvine Ranch Water District. We appreciate the opportunity to 
testify today on H.R. 1598, the Irvine Basin Groundwater and 
Surface Water Improvement Act of 2003.
    I would like to thank Congressman Cox, especially, for 
introducing this bill and for Senator Feinstein for introducing 
an identical piece of legislation on the Senate side.
    As you may know, the Irvine Ranch Water District provides 
domestic water service, wastewater collection and treatment, 
water reclamation and urban runoff treatment for the city of 
Irvine, and portions of four surrounding cities, as well as 
unincorporated areas of the County of Orange. In total, the 
district serves a resident population of over a quarter of a 
million people and a daytime population of about a half a 
million people.
    I have with me today the General Manager of the Irvine 
Ranch Water District, Mr. Paul Jones, to help answer any 
technical questions that the Committee might have.
    As background, as Mr. McKenney has mentioned, San Diego 
Creek Watershed encompasses over 120 square miles in Central 
Orange County. The watershed's boundary approximates that of 
the Irvine Ranch Water District and includes, as I mentioned 
before, the city of Irvine, also Lake Forest, Newport Beach, 
Orange and Tustin.
    Surface drainage or urban runoff containing fertilizers, 
pesticides, sediments and pathogens flow through the San Diego 
Creek Watershed into the Upper Newport Bay, severely impacting 
the water quality of the watershed and the bay. As a result, 
the EPA has identified the San Diego Creek and the Upper 
Newport Bay as impaired water bodies.
    In order to protect the water quality of the San Diego 
Watershed and the Upper Bay, and it is the largest marine 
estuary in Southern California, IRWD, in collaboration with the 
County of Orange, and the cities I have mentioned, is proposing 
to develop and maintain a system of manmade wetlands--31 in 
total--throughout the area that would utilize natural process 
to capture unwanted sediment, remove nutrients, pathogens and 
other contaminants from the runoff and ensure that dry weather 
flow and first flush from rains reaching the bay meet Federal 
clean water standards.
    In addition to completing the San Diego Creek Water Shed 
Natural Treatment System or NTS, the proposed legislation would 
authorize the Bureau of Reclamation assistance in developing a 
related component of the project to treat and reuse impaired 
groundwater within the groundwater basin. This will be built in 
conjunction with the local groundwater management agency, the 
Orange County Water District, and with financial assistance 
from the Metropolitan Water District of Southern California.
    This project, known as the Irvine Desalter, will consist of 
a well system and purification plant which will remove salts 
and nitrates caused by natural geology and past agricultural 
drainage. The project will employ reverse osmosis technology 
and create a new highly reliable local drinking water supply at 
a cost to Irvine Ranch Water District comparable to imported 
water supplies from the San Francisco Bay-Delta Estuary and the 
Colorado River. The project is consistent with the Bureau of 
Reclamation's objectives of reclaiming impaired water for 
beneficial uses.
    The final component of this project will be a regional 
brine line. In Orange County, as well as throughout California, 
wastewater reclamation for reuse is a critical component of the 
region's current and future water supply portfolio. Our region 
enjoys one of the most advanced systems of wastewater treatment 
distribution and reuse in the world.
    Currently, brines are disposed in the sewer from industrial 
sources and from groundwater treatment facilities. This method 
of disposal is problematic as it dramatically increases the 
cost of treatment and impairs water and wastewater agencies' 
ability to implement additional wastewater reclamation. To 
alleviate this problem, we propose to construct a regional 
brine line that consists of separate systems of pipes to 
segregate the brine from sewage and dispose of it directly to 
the ocean.
    Providing a new local water supply such as that created by 
the Irvine Desalter, and facilitating additional reclaimed 
water development through projects such as the regional brine 
line, are important strategies in reducing Southern 
California's reliance on imported water supplies from the San 
Francisco Bay-Delta Estuary and the Colorado River. In fact, 
both the CALFED program for the San Francisco Bay-Delta Estuary 
and the California 4.4 Plan for the Colorado River assume 
aggressive development and implementation of local water 
resource projects.
    Under CALFED, the fundamental objective of the Water 
Management Program Element is to: ``Reduce the mismatch between 
Bay-Delta water supplies and current and projected beneficial 
uses dependent on the Bay-Delta system,'' through a strategy to 
``increase the utility of available water supplies by making 
water more suitable for uses and reuses.'' As noted earlier, 
the Irvine Desalter makes unused water resources suitable for 
use, while the regional brine line promotes additional water 
reuse through reclamation.
    Similarly, for California's consumers of Colorado River 
water to stay within the 4.4-million-acre-feet of entitlement, 
numerous new local water supply and reclamation projects will 
need to be implemented. A recent report completed by the 
Metropolitan Water District of Southern California, entitled, 
``Report on Metropolitan's Water Supplies: A Blueprint for 
Water Reliability,'' identifies a 32-percent increase in local 
water supply project yield by the year 2025, as a key component 
in reducing reliance on imported water from the Colorado River.
    The total cost of the projects authorized by H.R. 1598 is 
slightly under $80 million. As you know, the Bureau of 
Reclamation's Title XVI allows a 25-percent contribution or up 
to a limit of $20 million. To date, the District, that is, 
IRWD, has spent over $2 million toward completing comprehensive 
project development work, including feasibility analysis, 
master plan and project engineering report preparation, water 
quality and groundwater modeling, environmental documentation, 
cost estimates, design plans and specifications.
    Mr. Chairman, members of the Committee, that completes my 
comments.
    Thank you very much.
    [The prepared statement of Mr. Brady follows:]

    Statement of Brian Brady, President of the Board of Directors, 
                      Irvine Ranch Water District

    Good afternoon, Mr. Chairman, Congressman Cox, and the other 
distinguished Members of this Committee. My name is Brian Brady and I 
serve as President of the Board of Directors of the Irvine Ranch Water 
District. I appreciate the opportunity to testify before you today on 
H.R. 1598, the Irvine Basin Groundwater and Surface Water Improvement 
Act of 2003. First, let me express my sincere gratitude to Congressman 
Cox for introducing this legislation, and also thank Senator Diane 
Feinstein who has introduced an identical piece of legislation in the 
Senate.
    If I may, I'd like to briefly describe the role that the Irvine 
Ranch Water District plays in our community and the context within 
which our project is proposed. The Irvine Ranch Water District provides 
domestic water service, wastewater collection and treatment, water 
reclamation, and urban runoff treatment for the city of Irvine and 
portions of four surrounding cities as well as the County of Orange. In 
total, the District serves a resident population of over 266,000 with a 
daytime population of approximately 500,000. We employ approximately 
275 well-qualified employees who are committed to the mission of 
providing a safe, reliable water supply to our customers without 
sacrificing the environment. In fact, because of our outstanding staff, 
the District has been recognized with numerous regional, statewide and 
national awards for our leadership in developing innovative ways to 
provide water while protecting the environment. The District's General 
Manager, Paul Jones, is with me here today to assist in answering any 
technical questions that the Members of the Committee may have about 
the projects that would be authorized by this legislation.
    We are extremely excited about this legislation, as it will allow 
the Irvine Ranch Water District to even better serve the community and 
the environment. The Irvine Basin Surface and Groundwater Improvement 
Act would authorize the Bureau of Reclamation to participate in the 
design and construction of projects that will enhance the environment 
of a large portion of Orange County. This partnership would be a 
tremendous help to the District as we work to develop new groundwater 
supply projects and to protect the San Diego Creek watershed and Upper 
Newport Bay.
    Before I talk about the specifics of our proposed project, it is 
important to discuss the regional context and approach used by water 
and wastewater agencies in San Bernardino, Riverside, and Orange 
Counties to address water resource and urban runoff issues. 
Contemporary surface and groundwater resource management relies heavily 
on addressing issues on a ``watershed-wide'' basis. The Southern 
California coastal plain and its watersheds extend from the mountains 
to the ocean. One watershed, that of the Santa Ana River, extends 96 
miles from the San Bernardino Mountains to the Pacific, between 
Huntington and Newport Beaches. In terms of management, the Santa Ana 
Watershed Project Authority, or SAWPA as it is known, provides 
watershed-wide coordination of water resource management projects 
through a joint powers agreement among five regional agencies. These 
agencies have worked to develop numerous water reclamation, brackish 
desalting and water quality wetland projects in the three-county 
region.
    In the lower portion of the Santa Ana River system in Orange 
County, Orange County Water District, one of the five SAWPA members, 
manages the groundwater basin, and as discussed later, is a key partner 
in the groundwater component of the proposed project.
    With respect to coordination of surface drainage, or ``urban 
runoff'' issues, the County of Orange, in collaboration with the cities 
and agencies within the County, are developing new, innovative methods 
to treat contaminated surface runoff, including another component of 
this proposed project referred to as the Natural Treatment System. 
Larry Mc Kenney of the County of Orange is here today and will be 
providing testimony regarding the County's watershed management 
efforts, and the role the proposed Natural Treatment System component 
of the proposed project plays in those efforts.
    All these aforementioned partnerships provide the basis for, and 
examples of, collaborative water resource management using a 
comprehensive ``watershed-wide'' approach.
    This brings us to the San Diego Creek watershed, which encompasses 
over 120 square miles in central Orange County. The San Diego Creek 
watershed's boundary is approximately the same as Irvine Ranch Water 
District's and includes the City of Irvine and portions of the Cities 
of Lake Forest, Newport Beach, Orange, and Tustin, as well as 
unincorporated areas of the County. Surface drainage or urban runoff 
containing fertilizers, pesticides, sediment, and pathogens, flows 
through the San Diego Creek watershed and into the Upper Newport Bay, 
severely impacting the water quality of the watershed and the Bay. As a 
result of these water quality concerns, EPA has identified San Diego 
Creek and the Upper Newport Bay as ``<plus-minus>impaired water 
bodies.''
    In order to protect the water quality of the San Diego Creek 
watershed and Upper Newport Bay, the largest marine estuary in Southern 
California, Irvine Ranch Water District, in collaboration with the 
County of Orange and the aforementioned cities, is proposing to develop 
and maintain a system of man-made wetlands throughout the area that 
will utilize natural processes to capture unwanted sediment and remove 
nutrients, pathogens and other contaminants from the runoff, thus 
helping to ensure that the dry weather and ``first flush'' flows and 
reaching the Bay meet Federal clean water standards. The Natural 
Treatment System portion of the project will provide a cost effective 
method to help the community protect the water quality and beneficial 
uses in San Diego Creek and the Upper Newport Bay, and will also 
provide additional neighborhood open space and wildlife habitat.
    In addition to completing the San Diego Creek Watershed Natural 
Treatment System, the proposed legislation would authorize Bureau of 
Reclamation assistance in developing a related component of the project 
to treat and reuse impaired groundwater within the groundwater basin. 
This will be built in conjunction with the local groundwater management 
agency, the Orange County Water District, and with financial assistance 
from of the Metropolitan Water District of Southern California.
    This portion of the project, known as the Irvine Desalter, will 
consist of a well system and water purification plant that will remove 
salts and nitrates caused by natural geology and past agricultural 
drainage from a portion of the groundwater basin underlying the San 
Diego Creek watershed. The project will employ reverse osmosis 
technology to create a new, highly reliable local drinking water supply 
at a cost to Irvine Ranch Water District comparable to imported water 
supplies from the San Francisco Bay-Delta Estuary and the Colorado 
River. The project is consistent with the Bureau of Reclamation's 
objectives of reclaiming impaired water for beneficial uses.
    The final component of this project will be a regional brine line. 
In Orange County, just as it is throughout California, wastewater 
reclamation for reuse is a critical component of the region's current 
and future water supply portfolio. Our region enjoys one of the most 
advanced systems of wastewater treatment, distribution and reuse in the 
world. Currently, brines are disposed in the sewer from industrial 
sources and existing or proposed impaired groundwater treatment 
facilities. This method of disposal is problematic as it dramatically 
increases the costs of treatment and impairs local water and wastewater 
agencies' ability to implement additional wastewater reclamation. To 
alleviate this problem, Irvine Ranch Water proposes to construct a 
Regional Brine Line that consists of a separate system of pipes to 
segregate brine from sewage and dispose of the brine directly into the 
ocean where salinity is not a concern.
    Providing new, local water supplies such as those created by the 
Irvine Desalter, and facilitating additional reclaimed water 
development through projects such as the regional brine line, are 
important strategies in reducing Southern California's reliance on 
imported water supplies from the San Francisco Bay-Delta Estuary and 
the Colorado River. In fact, both the CALFED program for the San 
Francisco Bay-Delta Estuary and the California 4.4 Plan for the 
Colorado River assume aggressive development and implementation of 
local water resource projects. Under the CALFED program, the 
fundamental objective of the Water Management Program Element is to: 
``Reduce the mismatch between Bay Delta water supplies and current and 
projected beneficial uses dependent on the Bay Delta system'' through a 
strategy to ``Increase the utility of available water supplies and by 
making water more suitable for uses and reuses.'' As noted earlier, the 
Irvine Desalter portion of the proposed project makes unused water 
resources suitable for use, while the regional brine line promotes 
additional water reuse through reclamation.
    Similarly, for California's consumers of Colorado River water to 
stay within the state's 4.4 million acre feet of entitlement, numerous 
new local water supply and reclamation projects will need to be 
implemented in urban southern California. A report recently completed 
by the Metropolitan Water District of Southern California entitled: 
``Report on Metropolitan's Water Supplies: A Blueprint for Water 
Reliability,'' identifies a 32% increase in local supply project yield, 
from 2.2 million acre feet 2005, to 2.9 million acre feet in 2025, as a 
key component in reducing reliance on imported water from the Colorado 
River. As such, the proposed project is consistent with these local 
supply development strategies and will incrementally help southern 
California meet its water supply management goals on the Colorado 
River.
    The total cost of the projects to be authorized in H.R.1598 is 
slightly under $80 million. As you know, the Bureau of Reclamation's 
Title XVI program allows the Bureau to contribute to 25% of the costs 
of planning, designing, and constructing projects like the ones that 
would be authorized by H.R. 1598 up to a limit of $20 million. To date, 
the District has spent over $2 million toward completing comprehensive 
project development work including feasibility analyses, master plan 
and project engineering report preparation, water quality and 
groundwater modeling, environmental documentation, cost estimates, 
design plans and specifications. In total, our District and other local 
sponsors are committed to providing over $60 million toward the 
construction of these important projects.
    Mr. Chairman, Congressman, thank you again for allowing me the 
opportunity to share my testimony with you. The Irvine Ranch Water 
District is committed to serving its customers in the most efficient, 
cost-effective and environmentally responsible manner. I am proud to 
serve as President of the Board for such an outstanding public agency. 
We are looking forward to working with the Bureau of Reclamation to 
make this project a success. Again, thank you for your time and 
consideration of my testimony. I will be glad to answer any questions 
you may have at this time.
                                 ______
                                 

    [NOTE: A document entitled ``Irvine Basin Groundwater and 
Surface Water Improvement Projects'' by Paul D. Jones II, P.E., 
submitted for the record has been retained in the Committee's 
official files.]
    Mr. Calvert. I thank the gentleman.
    Next, testifying on H.R. 1732, Commissioner Mike, you are 
recognized.
    [Laughter.]

 STATEMENT OF THE HONORABLE MIKE HEILIGENSTEIN, COMMISSIONER, 
                    WILLIAMSON COUNTY, TEXAS

    Mr. Heiligenstein. Thank you, Mr. Chairman.
    My name is Mike Heiligenstein, and I might say that the 
Village of Heiligenstein is on the border of France and 
Germany. And I used to be able to claim one or the other, 
depending upon whose policies I agreed with. Right now I am 
having a really hard time because I don't agree with either 
one.
    [Laughter.]
    Mr. Heiligenstein. I have also chaired for the National 
Association of Counties, and I am sure you hear from your 
county commissioners all the time, I also chair for them, I 
have chaired Water Quality, and I currently chair Air Quality 
for the National Association. This year, the Western Interstate 
Conference is in Tahoe, so I am sure water resources will be a 
huge factor in their conference at the end of May.
    I am here to testify on H.R. 1732 for Williamson County and 
the Williamson County Recycling Act of 2003. I also want to 
thank Congressman Carter and Congressman Edwards for their 
support.
    As a county commissioner in Texas, I and my fellow 
Commissioners Court members, are the overall governing and 
management body of the county. The Commissioners Court is 
responsible, of course, for all budgetary decisions and setting 
the tax rate.
    Commissioners Courts in Texas are also charged by our 
legislature to establish a courthouse and jail, build roads, 
bridges and provide law enforcement through a county sheriff. 
Williamson County's general fund is in excess of $66.5 million, 
and the road and bridge is in excess of $10.7 million.
    While the county has been given recent authority to provide 
water and wastewater services through the legislature, it has 
neither the budget nor the technical expertise to provide those 
services. We do, however, consult frequently with the Lower 
Colorado River Authority to be sure that the residents are 
getting the best water and wastewater service.
    Since 1990, Williams County has experienced phenomenal 
growth, and Williams County is located just north of Austin. We 
are the home of Dell Computer, Westinghouse and Motorola. 
According to the 1990 census, there were 139,000 residents in 
Williamson County. In just 10 years, we added over 100,000 new 
residents to the county. For that decade, we became the second 
fastest growing county in the State and the 19th fastest in the 
country. Population projections show that in the year 2025, we 
should be approaching 750,000 people. In fact, the city of 
Austin will be the largest governmental entity in my particular 
precinct.
    The Texas Water Development Board has required all retail 
providers to develop water conservation and drought contingency 
plans. All of the water providers in Williamson County have 
completed, and implemented, very restrictive water conservation 
lands. Even so, the current water supplies of Williamson County 
will meet the demand in the year 2017. As our population has 
grown, we have struggled to keep up with the demand for water. 
But because it is such a scarce and precious resource, we are 
constantly looking for ways to conserve what resources we do 
have and plan for the development of additional.
    There have been two major studies completed recently 
regarding the supply of water to Williamson County. In 1997, 
the Texas State Legislature determined the need to facilitate 
long-term water planning throughout the State and approved what 
was called Senate Bill 1. This statewide effort resulted in 15 
water plans throughout the entire State. One of those, Region 
G, included detailed evaluations of the 50-year plan for 
Williamson County.
    As I said before, a significant conclusion of that report 
is that the existing sources of water will be fully utilized by 
2017. Possible alternatives to meet the long-term needs of the 
county included, one, the construction of a nominal earnings 
reservoir; two, the development of groundwater; three, the 
inter-basin transfer of additional water from the Colorado 
River to the Brazos River.
    The second study was the Williamson County Water Supply 
Facilities Plan that was prepared by the LCRA and the BRA. It 
looked at how best to meet the 50-year needs of the cities and 
other retail providers in 10-year increments. Both reports 
placed significant emphasis on reuse. However, so far only 
three cities in the county have begun reuse projects and with 
only limited success. This is, in part, due to the fragmented 
approach now being taken, as well as the high initial cost to 
implement the reuse in Williamson County. The county believes 
that a significant reuse program can both reduce and postpone 
the need for the development of one or more of these new water 
supplies. This will have a direct impact on every water 
customer in the county.
    There has been a long-term relationship between the LCRA 
and Williamson County because LCRA has been a major power 
provider for nearly 75 years for much of the county. And during 
the last 10 years, the LCRA has been instrumental in bringing a 
regional approach to water and wastewater needs in the county.
    It is my understanding that the LCRA also has a long 
history with the Bureau. We believe that these two 
organizations can bring a truly regional approach to reuse in 
Williamson County. The initial infusion of Federal funds from 
the Bureau can jump start this important program. The LCRA's 
leadership and expertise in project management and delivery 
will ensure its long-term success.
    Since the county has no experience with major water and 
wastewater projects, we look to the LCRA and the BRA to provide 
their expertise to such a project. County Governments 
throughout the United States, as you probably know, are looking 
more and more toward regional approaches to solving problems 
that we have, including water.
    The county recently acquired 800 acres for a regional park, 
and we have constructed the first phase of that park. We use 
200,000 gallons per day of drinking water, and that contract 
with the city of Round Rock will expire in just 3 years. Until 
a better, more reliable, source of water can be developed, the 
county will be limited in its development of the remaining 
portion of that park. The proposed reuse project will provide 
that new source of irrigation.
    On behalf of the Commissioners Court of Williamson County 
and the citizens, I would like to thank the Committee for 
considering this bill. I can also assure you that the cities 
within Williamson County are aware of this important 
legislation and wanted me to acknowledge their support.
    Mr. Chairman, thank you for allowing me to appear, and I 
would be glad to answer any questions.
    Thank you.
    [The prepared statement of Mr. Heiligenstein follows:]

         Statement of Mike Heiligenstein, County Commissioner, 
                        Williamson County, Texas

    Good afternoon, Mr. Chairman and Members of the Committee. I am 
Mike Heiligenstein and I serve as a County Commissioner in Williamson 
County, Texas. Thank you for the opportunity to testify today on H.R. 
1732, the Williamson County Water Recycling Act of 2003. I also want to 
thank Congressman John Carter for introducing this legislation and 
Congressman Chet Edwards for cosponsoring. I am proud to have them 
representing my county in Washington, D.C.
    As a County Commissioner in Texas, I and my fellow Commissioners 
Court members, are the overall governing and management body of the 
County. The Commissioners Court is responsible for all budgetary 
decisions and setting the tax rate each year. Commissioners Courts in 
Texas are also charged by the Legislature to establish a courthouse and 
jail, build roads and bridges and provide law enforcement through the 
County Sheriff. Williamson County's general fund budget is in excess of 
$66.5 million dollars and the road and bridge fund is in excess of 
$10.7 million dollars. While the county has recently been given 
legislative authority to provide water and wastewater services, it has 
neither the budget nor technical expertise to effectively provide such 
services. We do, however, consult frequently with LCRA to be sure that 
the residents are getting the best water and wastewater service.
    Since 1990, Williamson County has experienced phenomenal growth. 
Williamson County is located just north of Austin and is the home to 
Dell Computer. According to the 1990 census, there were 139,551 
residents in Williamson County. By 2000, that number had grown to 
249,967. For that decade, Williamson County was the second fastest 
growing county in Texas and the 19th fastest growing county in the 
country. Although the growth has slowed recently, population 
projections still estimate we will have over 750,000 residents by 2025.
    The Texas Water Development Board has required all retail water 
providers to develop Water Conservation and Drought Contingency Plans. 
All of the water providers in Williamson County have completed and 
implemented very restrictive water conservation plans. Even so, the 
current water supplies in Williamson County will be exhausted in 2017. 
As our population has grown, we have struggled to keep up with the 
demand for water. Because it is such a scarce and precious resource, we 
are constantly looking for ways to conserve what sources we have and to 
plan for the development of additional sources before they are needed.
    There have been two major studies competed recently regarding the 
supply of water to Williamson County. In 1997, the Texas State 
Legislature determined the need to facilitate long- term water planning 
throughout the state and approved Senate Bill 1. This statewide effort 
resulted in fifteen regional water plans being developed. One of those 
plans, the Region G plan, included detailed evaluations of the 50-year 
water demands and supplies for Williamson County. This study was 
partially funded by the Texas Water Development. As I said before, a 
significant conclusion of that report is that the existing sources of 
water will be fully utilized in 2017. Possible alternatives to meet the 
long term water needs of the county include (1) the construction of a 
new reservoir on the Little River, (2) the development of ground water 
in an area 50-75 miles east of the county or (3) the inter-basin 
transfer of additional surface water from the Colorado River to the 
Brazos River basin. The second study was the Williamson County Water 
Supply Facilities Plan that was prepared by the Lower Colorado River 
Authority and the Brazos River Authority. It looked at how best to meet 
the 50-year needs of the cities and other retail providers in ten-year 
increments. Both reports placed significant emphasis on reuse in their 
water supply calculations. However, so far only three cities in the 
county have begun reuse projects and with only limited success. This is 
in part due to the fragmented approach now being taken as well as the 
high initial cost to implement reuse in Williamson County. The county 
believes that a significant reuse program can both reduce and postpone 
the need for development of one or more of these new water supplies. 
This will have a direct directly impact on every water customer in the 
county.
    There has been a long-term relationship between LCRA and Williamson 
County because LCRA has been a major power provider for nearly 75 years 
for much of the county. During the last 10 years, LCRA has also been 
instrumental in bringing a regional approach to the water and 
wastewater needs in the county. It is my understanding that LCRA also 
has a long history of working with the Bureau of Reclamation. We 
believe that these two organizations can bring a truly regional 
approach to reuse in Williamson County. The initial infusion of Federal 
funds from the Bureau of Reclamation can jump-start this important 
program. LCRA's leadership and experience in project management and 
delivery will insure its long-term success. Since the county has no 
experience with major water and wastewater projects, we look to LCRA 
and the Brazos River Authority to provide their expertise to such a 
project.
    The County recently acquired 800 acres for a regional park and has 
completed the construction of the first phase of its long-term plan for 
the park. Further development is now limited by the availability of 
irrigation water. The county now purchases 200,000 gallons per day of 
drinking water from the City of Round Rock. This contract will expire 
in 2006. Until a better, more reliable source of water can be 
developed, the county will be limited in its development of the 
remainder of the park. The proposed reuse project will provide that new 
source of irrigation water.
    On behalf of the Commissioners Court of Williamson County, I would 
like to thank the Committee for considering this bill. I can also 
assure you that the cities within Williamson County are aware of this 
important legislation and wanted me to acknowledge their support. Mr. 
Chairman, thank you for allowing me to appear before your Committee 
today. I would be glad to answer any questions at this time.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman for his testimony.
    Mr. Joe Beal, the General Manager of the Lower Colorado 
River Authority, Texas.

            STATEMENT OF JOE BEAL, GENERAL MANAGER, 
             LOWER COLORADO RIVER AUTHORITY, TEXAS

    Mr. Beal. Good morning, Mr. Chairman and other 
distinguished members of the Committee. My name is Joe Beal, 
and I am general manager of the Lower Colorado River Authority, 
headquartered in Austin, Texas.
    Thank you for the opportunity to testify on H.R. 1732, the 
Williamson County Recycling Act of 2003. I also want to express 
my sincere gratitude to Congressman John Carter for introducing 
this legislation and to Congressman Chet Edwards for co-
sponsoring this measure. Both Congressman Carter and 
Congressman Edwards have been very supportive of LCRA and 
Central Texas, and I appreciate their work on this legislation.
    Mr. Chairman, I would like to briefly describe to the 
Committee the mission and role of LCRA in communities 
throughout Central Texas. LCRA was created in 1934 by the Texas 
Legislature as a regional conservation and reclamation district 
in Central Texas. The Federal Government and LCRA have had a 
close and beneficial relationship since our creation, when LCRA 
received Federal loans and grants to build six reservoirs that 
form the Highland Lakes, and those loans have been repaid.
    These lakes have protected communities from destructive 
floods, provided a reliable water supply for one of the 
fastest-growing regions in the United States, produces 
renewable hydroelectric energy and created opportunities for 
parks and water recreation.
    Today, our energy and water service areas cover all or part 
of 58 counties in Central Texas. Thanks to the original Federal 
investment, LCRA generates wholesale electric power for more 
than one million people. We also manage a 600-mile stretch of 
the Texas Colorado River from West Texas to the Gulf of Mexico, 
and we provide raw water to cities, farmers, and industries in 
the Lower Colorado River Basin. Of course, this is not to be 
confused with the other Colorado River a little bit further 
west.
    The LCRA owns or operates 35 water and wastewater systems 
that serve more than 112,000 residents in 11 counties. The soul 
of LCRA is in our water services. We are a leader in Texas in 
promoting long-term water supply management planning and 
conservation practices. That is why I am here today to talk to 
you about water reuse for Williamson County.
    In 1997, the Texas Legislature divided the State into 15 
regions, as Mike has said, and mandated that each region 
develop a 50-year water plan. Through this planning process, 
water recycling in Williamson County was identified as an 
alternative water supply that would have three positive 
outcomes:
    First, it would reduce or postpone the need to develop more 
surface water.
    Second, it would delay and reduce the need for costly 
imports of groundwater from as far away as 75 miles east of the 
county.
    Third, it would postpone the need for interbasin transfers 
of water from the Colorado River to the Brazos River Basin.
    Studies conducted under the State planning process show 
that current water supplies will only meet Williamson County's 
needs through the year 2017. That is just 14 years from now. 
Water reuse, water sharing, and the development of new water 
sources are necessary to meet the county's long-term water 
needs.
    Mr. Chairman, we strongly support H.R. 1732, and we have 
committed significant funding to support this project because 
we believe it will have a major impact on the water supply in 
Williamson County.
    Currently, parks, schools, and other recreational areas in 
the county are literally dumping drinking water on the ground. 
This obviously does not make sense. We welcome the opportunity 
to partner with the Bureau to design, plan and construct a 
consolidated system to improve the efficient use of water 
resources in the county.
    There is regional support for the use of recycled water in 
Williamson County, and from a number of entities, including the 
Cities of Round Rock and Leander, Williamson County and the 
Round Rock Independent School District. The project will be 
part of an alliance between LCRA and the Brazos River Authority 
and will be completed in two phases.
    Construction of Phase I would begin as early as 2005, will 
take 1 year and will accomplish two goals:
    First, two golf courses in the county use about 600,000 
gallons of raw and drinking water a day for irrigation. This 
project would transport effluent from an existing wastewater 
treatment plant to the golf courses, freeing up drinking water 
for thousands of homes.
    Second, two large regional parks that also used drinking 
water for irrigation would begin to use transported recycled 
water. This will end a wasteful use of the city's critical 
water drinking supply and will cost city and county Governments 
and ratepayers far less.
    Phase II could begin construction in 2006 and will take 1 
year. It would expand delivery of recycled water to meet 
irrigation needs of several middle schools and high schools, 
other city and county parks and at least one more golf course.
    The use of recycled water is the most reliable source of 
irrigation for parks, school athletic fields and golf courses. 
We estimate that this project annually will save about 5,000 
acre feet or 1.6 billion gallons of raw and treated drinking 
water.
    The total cost of the project authorized in H.R. 1732 is 
$29 million. The Bureau's Title XVI Program allows the Bureau 
to contribute up to 25 percent of the cost, with a limit of $20 
million. So that means that the Federal part would be about 
$7.5 million, and LCRA is prepared to put up the balance of 
$21.5 million.
    We are very excited about this project and the opportunity 
to work with the Bureau to ensure its success.
    Mr. Chairman, members of this Committee, thank you for 
allowing me to appear before you today, and I am happy to 
answer any questions that you might have for me.
    [The prepared statement of Mr. Beal follows:]

          Statement of Joseph J. Beal, P.E., General Manager, 
                     Lower Colorado River Authority

    Good afternoon, Mr. Chairman and other distinguished Members of the 
Committee. My name is Joe Beal and I am General Manager of the Lower 
Colorado River Authority, headquartered in Austin, Texas.
    Thank you for the opportunity to testify on H.R. 1732, the 
Williamson County Water Recycling Act of 2003. I also want to express 
my sincere gratitude to Congressman John Carter for introducing this 
legislation and to Congressman Chet Edwards for cosponsoring this 
measure. Both Congressman Carter and Congressman Edwards have been very 
supportive of LCRA and Central Texas, and I appreciate their work on 
this legislation.
    Mr. Chairman, I would like to briefly describe to the Committee the 
mission and role of LCRA in communities throughout Central Texas. LCRA 
was created in 1934 by the Texas Legislature as a regional conservation 
and reclamation district in Central Texas. The Federal Government and 
LCRA have had a close and beneficial relationship since our creation, 
when LCRA received Federal loans and grants to build six reservoirs 
that form the Highland Lakes.
    These lakes have protected communities from destructive floods, 
provided a reliable water supply for one of the fastest-growing regions 
in the United States, produced renewable hydroelectric energy, and 
created opportunities for parks and water recreation. The Federal 
Government's investment has paid a huge dividend to Central Texas and, 
by the way, LCRA repaid all the loans years ago.
    Today our energy and water service areas cover all or part of 58 
counties. LCRA generates wholesale electric power for more than 1 
million people. LCRA also manages a 600-mile stretch of the Texas 
Colorado River from West Texas to the Gulf of Mexico, and provides raw 
water to cities, farmers and industries in the lower Colorado River 
basin.
    LCRA owns or operates 35 water/wastewater systems that serve more 
than 112,000 residents in 11 counties.
    LCRA also provides community services such as parks and recreation, 
water quality protection, and economic and community development.
    But the soul of LCRA is in our water services. We are a leader in 
Texas in promoting long-term water supply management planning and 
conservation practices. That is why I am here today to talk to you 
about water reuse for Williamson County.
    In 1997 the Texas Legislature divided the state into 15 regions and 
mandated that each region develop a 50-year water plan. Through this 
planning process, water recycling in Williamson County was identified 
as an alternative water supply that would have three positive outcomes:
    <bullet> First, it would reduce or postpone the need to develop 
more surface water.
    <bullet> Second, it would delay and reduce the need for costly 
imports of groundwater from as far as 75 miles east of the county.
    <bullet> Third, it would postpone the need for interbasin 
transfers of water from the Colorado river to the Brazos River basin.
    Studies conducted under the state planning process show that 
current water supplies will only meet Williamson County's needs through 
the year 2017. Water reuse, water sharing, and the development of new 
water sources are necessary to meet the county's long-term water needs.
    Mr. Chairman, we strongly support H.R. 1732, and we have committed 
significant funding to support this project because we believe it will 
have a major impact on water supply in Williamson County.
    Currently, parks, schools and other recreational areas in the 
county are literally dumping drinking water on the ground. This 
obviously does not make sense. We welcome the opportunity to partner 
with the Bureau of Reclamation to design, plan and construct a 
consolidated system to improve the efficient use of water resources in 
the county.
    There is regional support for the use of recycled water in 
Williamson County from a number of entities including the cities of 
Round Rock and Leander, Williamson County and the Round Rock 
Independent School District. The project will be part of an alliance 
between LCRA and the Brazos River Authority and will be completed in 
two phases.
    Construction of Phase 1 could begin as early as 2005, will take one 
year, and will accomplish two goals:
    <bullet> First, two golf courses in the county use about 600,000 
gallons of raw and drinking water a day for irrigation. This project 
would transport effluent from an existing wastewater treatment plant to 
the golf courses, freeing up drinking water for thousands of homes.
    <bullet> Second, two large regional parks that also use drinking 
water for irrigation would begin using transported, recycled water. 
This will end a wasteful use of the county's critical drinking water 
supply, and will cost city and county governments and ratepayers far 
less.
    Phase II could begin construction in 2006 and will take one year. 
It would expand delivery of recycled water to meet irrigation needs of 
several middle schools and high schools, other city and county parks, 
and at least one more golf course.
    The use of recycled water is the most reliable source of irrigation 
for parks, school athletic fields, and golf courses. We estimate that 
this project annually will save about 5,000 acre-feet, or 1.6 billion 
gallons, of raw and treated drinking water.
    The total cost of the project authorized in H.R. 1732 is $29 
million. The Bureau of Reclamation's Title XVI program allows the 
Bureau to contribute up to 25 percent of the cost, with a limit of $20 
million, for planning, designing, and constructing projects like the 
ones that would be authorized by H.R. 1732. LCRA is ready and able to 
provide the local cost share of $21.5 million.
    LCRA is very excited about this project and the opportunity to work 
with the Bureau of Reclamation to ensure its success. We have met with 
the Bureau to discuss the need for developing a water recycling program 
in Williamson County.
    Mr. Chairman, Members of this Committee, thank you for allowing me 
to appear before you today. I am happy to answer any questions you may 
have at this time.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman for his testimony.
    First, I wanted to ask a question of Mr. Limbaugh as far as 
if you know the answer to this question. If not, maybe you can 
get back to me. Since we are pretty much ending the rainy 
season, except here in Washington, D.C., obviously, but in the 
West, the Colorado River, where are we at as far as the snow 
pack and the Colorado River flows this year? Do you have any 
insight into that?
    Mr. Limbaugh. Mr. Chairman, I am not familiar with today's 
forecast and will certainly get that information to you, but I 
do know that on the drought map, the Colorado River Basin is 
almost a bull's eye in terms of a drought this year. So those 
reservoirs are working and doing their job.
    Mr. Calvert. Right. Lake Mead, Lake Powell are at historic 
low levels; is that correct?
    Mr. Limbaugh. Yes, sir, Mr. Chairman. That is correct.
    Mr. Calvert. The reason I bring that up, and obviously 
there are other places in the country, rather than just the 
Upper and Lower Basin States in the West that are experiencing 
drought right now, the Bureau has a number of programs to 
enhance water supplies. Could you explain, for the record, the 
role of Title XVI water recycling programs and how they play in 
developing water supplies?
    Mr. Limbaugh. Yes, Mr. Chairman. It is my understanding 
that the act, as we call Title XVI, did authorize the Secretary 
to enter into some specific projects for planning, designing, 
and constructing originally and also gave us authority to work 
to identify pilot projects, and demonstration projects, and 
bring those to feasibility study level in terms of planning, in 
that light.
    We believe that the Act was successful in its original 
intent, and we certainly have been involved in those projects 
in the past. We, however, are again dealing with limited 
dollars and very real demands on those dollars, in terms of our 
existing facilities that we have to operate and maintain, along 
with security, and so we have tried to put as much as we could 
into these programs, and we certainly have worked with the 
local folks to try to get them to the place where they can at 
least get to the merits of their individual projects on a case-
by-case basis.
    Mr. Calvert. Mr. Limbaugh, could you explain the role of 
water recycling in your 2025 program?
    Mr. Limbaugh. You are referring to Water 2025, the 
secretarial initiative. We have four tools that we are 
outlining in that program, and one of which--well, I can just 
go through those real quick, Mr. Chairman.
    The first one is conservation and improved water 
management; the second one is collaborative efforts to deal 
with water crises and conflict; and the third one is research 
into desalination and advanced water treatment technologies to 
bring the cost down; and the fourth one is better interagency 
working relationships, cooperation and use of existing 
infrastructure in a more efficient and effective manner.
    Mr. Chairman, the third one is the one that I think would 
relate to this because in Water 2025, we are trying to take a 
global view of what would benefit all projects, in terms of an 
initial investment in research and bringing the cost of water 
desalination down, and especially in light of not only the 
technology, but also the brine disposal because we believe that 
water desalination is something that is up and coming in terms 
of advancing future water supplies, not only from the ocean, 
but from brackish or untreated, unusable groundwater.
    So we believe that that initiative would look at focusing 
funds in that direction to benefit all of these types of 
projects.
    Mr. Calvert. The reason I bring that up, isn't it true, 
though, that you don't mention water recycling, even though you 
probably should under 2025's Improved Technology section? There 
is no mention of water recycling in the program; isn't that 
correct?
    Mr. Limbaugh. I would have to look at the document again, 
but I would take your word for it, yes.
    Mr. Calvert. And the reason I bring this up, and I am sure 
we will have time here, is California, Texas, throughout the 
country, we are experiencing problems as far as water is 
concerned, and as Mr. Edwards had mentioned in his initial 
testimony, that water is almost more precious than oil in many 
parts of the country right now. Obviously, reuse of water, 
recycling water is extremely important in these arid regions, 
and certainly we would like to get the participation of the 
Department of Reclamation. And you are right, we have 
responsibility here in the Congress to help you along in that 
process, and I assure you of my continued support to do exactly 
that.
    With that, Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chairman. I would like to 
follow on your line of questioning to Mr. Limbaugh because in 
our conversations, even in the budget, the recycled water 
budget has gone from, what, $32.5- to was it $10-? There are 
very few projects that are going to be able to be funded this 
year with that amount of money.
    And I think that our colleagues need to understand that it 
is not that this Committee has not looked at water recycling, 
it is just that the funding is being diminished, and in the 
Water 2025, it is not even mentioned, which means it is being 
phased out. Whether somebody wants to admit it or not, this is 
a reality.
    And we are urging--I have talked to Commissioner Keys--and 
we are urging that it be reconsidered because it is not just 
desal, and conservation, and storage that is going to get the 
rest of the United States to be able to deal with these water 
issues; it also includes recycled water. Because as we have 
pockets of water that have been contaminated and treated that 
are being dumped in the ocean, we should be having--our 
communities benefit from the reuse of that water, and I 
certainly want to convey the message very strongly. I have 
mentioned this many times.
    To you, Mr. Limbaugh, or to Mr. McKenney, the three 
projects that are included in the Bureau of Reclamation's 
Southern California Comprehensive Water Reclamation and Reuse 
Study, the three projects that you mentioned, are they included 
in that study? And I must say, Mr. Limbaugh, for the record, 
that I am again requesting a copy for this Committee of the 
Bureau of Reclamation's Southern California Comprehensive Water 
Reclamation Reuse Study. Someday we may get it.
    But have you any idea whether they are, Mr. McKenney or Mr. 
Brady, included in that study?
    Mr. McKenney. Well, as you know, Congresswoman, that study 
hasn't been released, but based upon discussions with USBR's 
staff, we understand that the desalter portion of the project 
is included in the study or will be included in the study and 
that the study does discuss brine impacts on reclamation and 
the potential for brine disposal facilities.
    Now, the third part of our project, the Natural Treatment 
System, we understand is not in there. That is our best 
information.
    Mrs. Napolitano. Mr. Limbaugh?
    Mr. Limbaugh. Mr. Chairman and Mrs. Napolitano, we will 
take your comments back, and I will check on the status of that 
study and get back to you on that.
    Mrs. Napolitano. I would appreciate it very much.
    Mr. McKenney, are these projects part of the plan proposed 
by the Santa Ana Watershed Project Authority?
    Mr. Jones. I am going to respectfully defer to Mr. Brady on 
that question. He has been more directly involved in all of 
those discussions with SAWPA about the water supply projects.
    Mr. McKenney. And, once again, Congresswoman, the three 
projects have been discussed at a staff level with SAWPA. As 
well, Orange County Water District, which is a member agency of 
SAWPA, is one of our partners in a portion of the--in the 
desalter project, and SAWPA has indicated a strong interest in 
perhaps partnering on the brine line, at least going up into 
the Santa Ana River Watershed, as a partner with us.
    Mrs. Napolitano. And the other two projects are not 
considered in the context of the regional solutions?
    Mr. McKenney. Yes, they are. In terms of regional contexts, 
all three projects are in regional planning. Yes, ma'am.
    Mrs. Napolitano. Do you anticipate any State assistance?
    Mr. McKenney. We are hopeful. As many agencies are doing, 
Proposition 13 and Proposition 50 funding, it is a competitive 
process. If we were to receive everything that we have 
requested, it would be perhaps as much as half of what we are 
requesting under this Federal--
    Mrs. Napolitano. Good luck.
    Mr. McKenney. Thank you.
    Mrs. Napolitano. Could you tell me how, if either you or 
Orange County, have prepared the engineering environmental 
studies on these projects and how much money has been spent to 
date?
    Mr. McKenney. Oh, certainly.
    Mrs. Napolitano. Ballpark--I don't need exact figures.
    Mr. McKenney. Well, ballpark, the short answer is about $2 
million on feasibility and engineering studies, and in terms of 
having the base data for feasibility studies, as mentioned by 
the Bureau, we believe that all of the data is available, it is 
a matter of formatting into another agency's requirements.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. Calvert. Thank the gentlelady.
    Mr. Osborne?
    Mr. Osborne. Thank you, Mr. Chairman, and I thank the 
members of the panel for being here today. I really am somewhat 
removed from your area of jurisdiction.
    I do have one question, though. I am interested in your 
comments on desalinization and also reuse of water. Are there 
any plans or any projects that you have which would be for 
additional water storage? I realize there is a reluctance to 
build new water storage facilities, dams, those types of 
things, and I didn't know if this was part of the project or if 
you see any future in that type of movement. And that is 
addressed to any of you who would care to answer.
    Mr. McKenney. Congressman, we have additional storage 
projects planned, but they are groundwater storage projects, 
not conventional reservoirs. And, as well, we are a retail 
agency serving a large part of Orange County, California, but 
the Metropolitan Water District of Southern California being 
the overall importer of water and developer of large projects 
like the Diamond Valley Reservoir is involved with many 
potential storage projects. But for Irvine Ranch Water 
District, in terms of storage, it would be groundwater storage 
within our basin.
    Mr. Osborne. Please say some more, would you about 
groundwater storage, exactly how you are going to accomplish 
that. I understand the concept, but I am not exactly sure how 
that plays out in practical terms.
    Mr. McKenney. Well, I guess the basics of it in Orange 
County is we have the Orange County Groundwater Basin that is 
fed primarily by the Santa Ana River Watershed. That provides a 
good deal of recharge. There are recharge basins. And in 
addition to that, the Orange County Water District has a 
separate agency that is charged with replenishing the 
groundwater, buys both imported water and other seasonal water 
to recharge.
    In addition to that, the Orange County Sanitation District 
and the Orange County Water District have embarked on a very 
large what is called groundwater replenishment system, taking 
tertiary treated water from the Orange County Sanitation 
District Waste Treatment Plants and pumping that back up into 
the higher reaches and elevation of the Orange County 
Groundwater Basin for additional recharge. That is a large 
project. I don't have the exact size of the project, but it is 
certainly the largest to date in the United States.
    Mr. Osborne. So some of it would be putting more water in 
the Santa Ana River; is that right? Some of this would be 
accomplished that way?
    Mr. McKenney. In Orange County, we take out of the Santa 
Ana River to recharge, and the groundwater replenishment system 
pipes that water for recharge up into large settling basins.
    Mr. Osborne. One more question, and this really relates 
more to problems that we face in a different part of the 
country, and that is the interrelation between surface water 
and groundwater. And you hear terms like the alluvium, you 
know, the distance that you can drill a well from a river 
without really draining a river. And I wonder if you have 
developed models out there regarding the interrelationship 
between the surface and groundwater; in other words, exactly 
what impacts what and have you developed some theoretical 
models that would pretty well illustrate the interrelationship?
    Mr. McKenney. That work is being done. However, that's 
being done by the Orange County Water District, not by Irvine 
Ranch. We are a participant with them, and there is extensive 
modeling being done at the groundwater, and its relationship to 
the Santa Ana River, primarily, but we can, as Irvine Ranch 
Water District, we can request more information for you to 
submit to the Committee.
    Mr. Osborne. Thank you.
    I yield back, Mr. Chairman.
    Mr. Calvert. Thank the gentleman.
    Does the gentleman have any questions for the panel?
    Mr. Grijalva. No. Thank you, Mr. Chairman. No questions at 
this time.
    Mr. Calvert. Mr. Nunes?
    Mr. Nunes. No questions.
    Mr. Calvert. Mrs. Napolitano, and then I will take it next. 
How is that?
    Mrs. Napolitano. Thank you.
    Your desal project, Mr. Brady, will treat groundwater 
contaminants by salts and nitrates caused by natural geology, 
and of course, as you mentioned, past agricultural damage. Have 
other contaminants, such as perchlorates or the VOCs been found 
in your groundwater?
    Mr. McKenney. Yes, Congresswoman. We have, at the former El 
Toro Marine Air Base, they have found VOCs in the groundwater, 
as part of a separate project in conjunction with the 
Department of Defense, the Navy, Irvine Ranch Water District. 
That water will be extracted and cleaned up. That water will go 
into the reclaimed water system. It will not go into a potable 
water system.
    The desalter operation is at a distance from that 
contamination, and what we are treating there, as you have 
said, is total dissolved solids and nitrates, and that water, 
once treated, will go into a potable water system, so we will 
be able to use that for drinking water.
    Mrs. Napolitano. In your testimony and in your booklet that 
you have handed out, you indicated that you have the funding 
request for the treatment of stormwater, which is now being 
used or the Federal mandate is that all cities charged with the 
water that is going into the ocean through the stormwater 
systems, is that part of what Title XVI is charged with? And, 
Mr. Limbaugh, that is a question for you, too.
    Mr. Jones. Well, perhaps I will go first, Congresswoman. 
The short answer is, yes, Title XVI includes provisions that 
say that the money in Title XVI can be used to clean up 
impaired waterways, and I guess another significant perspective 
on it for me is that the Irvine Ranch project is a good example 
of taking money that can be used for one purpose and having it 
accomplish multiple purposes. To me, that is what the watershed 
approach is all about.
    And so the county, with the legal responsibility to comply 
with the stormwater permits, is very excited about working with 
a project that IRWD is pursuing because of the water supply 
aspects of it, and it achieves multiple purposes.
    Mrs. Napolitano. Well, I totally agree with you. I just 
hope that we and the Administration are able to have cities 
have enough funding to be able to help get where you are going.
    Mr. Limbaugh?
    Mr. Limbaugh. I would agree with the witness on the 
applicability of Title XVI to the treatment of that source of 
water.
    Mrs. Napolitano. Is there a possibility then that the 
Administration and the Bureau of Reclamation might include that 
provision in year 2025?
    Mr. Limbaugh. Mr. Chairman and Mrs. Napolitano, we are 
accepting comments on that, and we would certainly take your 
comments and your advice back, and take it under advisement as 
we look forward to working with Congress and working with the 
stakeholders out in the West on this vision for water 
management in the 21st century, yes.
    Mrs. Napolitano. I would be very pleased to see what the 
results of the dialogue will be, but I would also hope that you 
would include EPA, since they are the ones who are mandating it 
on all cities.
    Thank you, Mr. Chairman.
    Mr. Calvert. I thank the gentlelady.
    A couple of quick questions here, and I am going to take 
off on Mrs. Napolitano on the issue of point discharge, and I 
am getting these questions throughout the West. I don't know so 
much in Texas, but certainly in the coastal regions of, and you 
may have the same problem in the coastal regions in Texas, too, 
but on the issues of point discharge the EPA standards, which 
are mandated, are Federally mandated, to meet, and it is an 
expensive mandate.
    And so it is another way of selling Federal participation 
to meet standards that are being forced upon local communities, 
which need to meet those standards, but are having a hard time 
paying for those things and the types of projects that the 
Irvine Company--I shouldn't say the Irvine Company--the Irvine 
Water District is developing helps meet those standards.
    By the way, I was going to ask the question, if this 
project is built, do you have the flexibility in that where the 
State that is apparently operating or is involved in the 
technicalities of meeting these standards, are they continually 
going to take a look at every opening, of flood control 
opening, or can you focus in more of a larger view here in what 
you are trying to do here? Will that satisfy the regulators?
    Mr. Jones. Sir, I don't think that the regulators will ever 
be completely satisfied. The stormwater standard that we meet 
is maximum extent practicable, which is a flexible standard. So 
the more we learn, the more we will probably be required to do. 
I think that is the reality.
    We do have some specific objective standards in the San 
Diego Creek Watershed that have resulted in the listing of the 
water body as impaired for several constituents, including 
sediment, nutrients, pathogens and toxicity, and this project 
certainly contributes significantly to meeting the TNVL goals, 
especially in the near term.
    I think one other comment I would like to make in response 
to what you were saying is that it is important to note that 
when the Clean Water Act first came into existence, the Federal 
Government provided very substantial economic support to the 
industries and sewage treatment plants that were being brought 
under point source permits, and now that the regulations are 
being applied in a new way to municipal stormwater systems, it 
is not always, that kind of economic assistance is not always 
made available as readily. So we are really looking to be more 
creative in finding these opportunities to collaborate with 
Federal agencies.
    Mr. Calvert. Commissioner and Mr. Beal, regarding Texas and 
recycling, how much recycling is being done statewide in Texas? 
Are you seeing a substantial increase? I know the city of 
Austin has been here on a number of occasions talking about 
recycling. Do you see it moving around throughout Texas?
    Mr. Beal. Yes, Mr. Chairman. As the population continues to 
increase in Texas, and as our water supplies continue to be 
stressed, we are seeing more and more recycling around the 
State. El Paso has a program of recycling wastewater into 
drinking water. The city of Austin has a very good program. The 
city of San Antonio, also, with their short supplies, has 
instituted a significant recycling program.
    Mr. Calvert. I know sometimes with an education process on 
recycling, are the people in Texas accepting the utilization of 
recycled water for parks and recreation areas? Is there any 
political fallout for this?
    Mr. Beal. I will let Commissioner Heiligenstein talk about 
the political part of it, but the fact is that the people of 
Texas, with most of the State having been in drought for a 
number of years, and with the focus of the legislature on 
future water supplies, the people of Texas are becoming used to 
recycling water, and it is very much an acceptable practice 
today.
    Mr. Calvert. Commissioner, anything to add to that?
    Mr. Heiligenstein. Just that, yes, in the county I think 
even in the school districts and the public facilities it has 
become acceptable. I was telling Congressman Carter earlier 
today that even at what we call Dell Diamond or Double A Ball 
Club we do use recycled water for that facility, and all you 
have to do is mix that smell up with the popcorn, and the 
peanuts, and the hot dogs, and you are just fine.
    [Laughter.]
    Mr. Calvert. I guess that is why we call it ``integrated 
water'' supply.
    Mr. Heiligenstein. Yes.
    [Laughter.]
    Mr. Calvert. That is a good answer.
    Are there any other questions of this panel, Mrs. 
Napolitano?
    Mrs. Napolitano. One more question, and I happened to read 
some of the testimony, and it is an interesting terminology 
that is used, and that is effluent reuse and, to me, I don't 
know whether you are talking about recycled water, is it 
secondary treated? Is it tertiary treatment?
    Mr. Beal. When we say effluent reuse, what we mean is the 
recycling of the water. In Texas, the State Health Department 
has standards about how recycled wastewater can be used. If 
there is general access to the area that is being irrigated 
with that wastewater, the treatment levels are tertiary 
treatment. If there is very limited access, it is secondary 
treatment, 10-15, and usually with phosphorous removal.
    Mrs. Napolitano. Is it treated for infectious, 
communicable?
    Mr. Beal. Yes, ma'am, but there are also signs posted 
announcing to the public that is recycled. There are 
precautions, but the water is treated and generally filtered 
before it is ever reused.
    Mrs. Napolitano. I guess that is about most of the 
questions that I have. I am hoping that we will be able to be 
more successful in educating the general public throughout the 
United States about the value of recycled water, and as we move 
forward in other new treatments that we may be able to make a 
difference.
    And I have made the statement before that we are drinking 
water that was around eons ago. It is just being recycled by 
Mother Earth, and refiltered and reused. So we are really 
reusing the reused water.
    So thank you very much, Mr. Chair.
    Mr. Calvert. I thank the gentlelady.
    Mr. Cardoza, do you have any questions of this panel?
    Mr. Cardoza. No.
    Mr. Calvert. I want to thank this panel for coming out. I 
think both H.R. 1732 and H.R. 1598 are part of the solution to 
the problem we have in this country, and certainly I, as Mrs. 
Napolitano and many of us, support water recycling. I think the 
Department of Reclamation does also. I understand the budget 
constraints the Department is under, and hopefully we can help 
out here. But in order for us to meet the requirements that a 
growing population needs, we are going to require the 
utilization of recycling and additional supply of water to make 
sure that we maintain a productive economy.
    With that, I want to thank you, and hopefully we can move 
these fine pieces of legislation forward and find the money to 
do it.
    Have a great day. We are adjourned.
    [Whereupon, at 11:18 a.m., the Subcommittee was adjourned.]

    [Mr. Limbaugh's response to questions submitted for the 
record follows:]

                             June 10, 2003

Honorable Ken Calvert
Chairman
Subcommittee on Water and Power
Committee on Resources
House of Representatives
Washington, DC 20515

Dear Mr. Chairman:

    Thank you for the opportunity to respond to the follow-up question 
from the May 22, 2003 hearing before the House Subcommittee on Water 
and Power on H.R. 1598 and H.R. 1732.
    Enclosed is Reclamation's response to your question. I would 
appreciate your assistance in inserting it into the hearing record. If 
you have further questions or concerns, please do not hesitate to 
contact me.

                               Sincerely,

   Mark A. Limbaugh, Director, External and Intergovernmental Affairs

                RESPONSE TO CHAIRMAN CALVERT S QUESTION
    1) Question: Does Federal funding of these Title XVI projects imply 
ownership of water rights in these projects by Federal agencies, 
specifically by the Bureau of Reclamation? If not, would you be willing 
to have an amendment placed in the bills specifying there is no 
ownership of water rights by the Bureau of Reclamation to the projects 
they participate in?
    Answer: Title XVI projects that are funded by the Bureau of 
Reclamation are owned and operated by the non-Federal project sponsor. 
Reclamation has no responsibility in the project once the project has 
received its legislated full share of Federal funds. Ownership of water 
that is reclaimed and available to be reused resides with the local 
water agency and is not subject to Federal control or responsibility. 
Reclamation would not be opposed to an amendment to Title XVI that 
clarifies this, although it is not considered to be necessary.


</pre></body></html>
